UNITED STATES DEPARTMENT OF AGRICULTURE
          OFFICE OF INSPECTOR GENERAL
                Western Region - Audit
             75 Hawthorne Street, Suite 200
               San Francisco, CA 94105
         TEL: 415-744-2851 FAX: 415-744-2871




    U.S. Department of Agriculture
     Office of Inspector General
           Western Region
             Audit Report



       FOOD AND NUTRITION SERVICE
          CHILD AND ADULT CARE
             FOOD PROGRAM
           CRYSTAL STAIRS, INC.




                                         Report No.
                                         27010-24-SF
                                         January 2002
                UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL
                                     Western Region - Audit
                                  75 Hawthorne Street, Suite 200
                                    San Francisco, CA 94105
                              TEL: 415-744-2851 FAX: 415-744-2871




DATE:       January 9, 2002

REPLY TO
ATTN OF: 27010-24-SF

SUBJECT: CACFP - Crystal Stairs, Inc., Los Angeles, California

TO:         Allen Ng
            Regional Administrator
            Western Region
            Food and Nutrition Service

ATTN:       Kathleen Burks
            Director
            Financial Management


This report presents the results of our audit of a Child and Adult Care Food Program
sponsor operating in the State of California. Your written response to the report is
included as exhibit B. Excerpts from your response and our position are set forth in the
relevant sections of the report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60
days describing the timeframes for implementing the recommendations. Please note
that regulations require a management decision to be reached on all findings and
recommendations within 6 months from report issuance.

The Office of the Chief Financial Officer (OCFO), U.S. Department of Agriculture, has
responsibility for monitoring and tracking final action for findings and recommendations.
Follow your agency’s procedures in forwarding final action correspondence to OCFO.

We appreciate the cooperation and assistance provided by your staff during our audit.



/s/
SAM W. CURRIE
Regional Inspector General
    for Audit
OIG:A:WR:JJOHNSON:SCURRIE:FK;415-744-2852:1/4/02
FILE: COMMON/AUDIT/27010-24-SF(CRYSTAL STAIRS)
                       EXECUTIVE SUMMARY
                      FOOD AND NUTRITION SERVICE
                  CHILD AND ADULT CARE FOOD PROGRAM
                          CRYSTAL STAIRS, INC.
                        LOS ANGELES, CALIFORNIA
                      AUDIT REPORT NO. 27010-24-SF


                                      This report presents the results of our audit of
       RESULTS IN BRIEF               Crystal Stairs, Inc., (Crystal Stairs) of Los
                                      Angeles, California, a sponsor participating in
                                      the U.S. Department of Agriculture’s (USDA)
          Child and Adult Care Food Program (CACFP). The purpose of the CACFP
          is to ensure that children and adults in day care receive nutritious meals.
          The CACFP reimburses participating nonresidential care facilities, such as
          day care homes, for meals served to eligible individuals in their care.

           For fiscal year 2000, Crystal Stairs administered the CACFP to over 2,300
           homes. These homes were reimbursed approximately $11 million for
           meals served, while Crystal Stairs was reimbursed approximately $1.3
           million for administrative costs. The objectives of our audit were to
           evaluate the sponsor’s administration of the program and compliance with
           program requirements.

           Our review disclosed that Crystal Stairs needs to improve its monitoring of
           day care homes and supervision of its own field staff. During fieldwork,
           nothing came to our attention that Crystal Stairs was claiming unallowable
           expenses.

           Of the 65 day care home providers we visited, 52 were deficient in at least
           one of the four categories we reviewed—claims, recordkeeping, health
           and safety, and nutrition. These were the same categories in which the
           State reviewers, assisted by FNS officials, detected problems during their
           home visits in 1999. Overall, we found that the providers had not
           complied with program regulations designed to ensure that they were
           reimbursed only for eligible meals served to children in their care.

           •   30 of the 52 providers may have claimed reimbursements for ineligible
               meals. Fewer children were present during our visits than were
               subsequently claimed by the providers for those days’ meals. In one
               case, the provider claimed ten children for breakfast and seven


USDA/OIG-A/27010-24-SF                                                         Page i
               children for lunch on the day of our visit even though neither the
               provider nor any children were present when we visited.

           •   26 of the 52 providers either could not produce any attendance records
               or had made errors on the records they kept.

           •   9 of the providers did not follow nutritional standards while another 20
               providers did not provide a healthy and safe environment.

           We concluded that the monitoring performed by Crystal Stairs was not
           adequate and that some providers had not been satisfactorily trained. The
           sponsor’s own documentation of its oversight activities raised further
           questions about the quality of its monitoring.          The documentation
           disclosed that Crystal Stairs did not ensure that its field specialists
           conducted the required number of monitoring visits or accurately recorded
           monitoring times or mileage. We found monitoring forms that indicated
           the same field specialist was at two day care homes at the same time.
           We also found odometer recordings that indicated the same miles were
           driven on 2 different days. In addition, at least 41 required monitoring
           visits for FY 2000 were never made. Also, several timesheets supporting
           the payroll charges for one field specialist for FY 2000 were missing.

           In addition, because Crystal Stairs lacked the necessary controls and
           supervision, there was no assurance that day care home providers
           complied with CACFP meal patterns, recordkeeping, and other program
           requirements and no assurance that field specialists were properly
           compensated for payroll and mileage expenses. Also, Crystal Stairs did
           not submit revised claims to reflect adjusted expenditures.

                                   We recommend that the Food and Nutrition
   KEY RECOMMENDATIONS             Service require the State agency to continue
                                   to monitor Crystal Stairs to ensure that the
                                   sponsor corrects its deficiencies and operates
         in accordance with the CACFP regulations. Specifically, the State agency
         should:

               Ensure that Crystal Stairs performs the required number of home
               visits annually, utilizes a tracking system that accurately reflects home
               visits performed, and that field specialist records are adequately
               reviewed by supervisors and maintained as required.

               Require Crystal Stairs to revise its monitoring processes to ensure
               provider compliance with program requirements.



USDA/OIG-A/27010-24-SF                                                          Page ii
              Ensure that Crystal Stairs submits revised claims and budget
              revisions, in accordance with the CDE Day Care Home Sponsors
              Administrative Manual, when administrative expenses are adjusted.

                                     In its December 12, 2001, written response to
      AGENCY RESPONSE                the draft report, the Food and Nutrition Service
                                     concurred with the report findings and
                                     recommendations. The response is included
                                     in its entirety as exhibit B of this report.

                                     We are unable to accept FNS’ management
         OIG POSITION                decision on any recommendations. In order to
                                     reach management decision, FNS needs to
                                     provide a timeframe for completing the
              recommended actions.




USDA/OIG-A/27010-24-SF                                                       Page iii
                                  TABLE OF CONTENTS


  EXECUTIVE SUMMARY ............................................................................................i
                 RESULTS IN BRIEF..................................................................................i
                 KEY RECOMMENDATIONS ....................................................................ii
                 AGENCY RESPONSE.............................................................................iii
                 OIG POSITION ....................................................................................... iii

  INTRODUCTION........................................................................................................1
                 BACKGROUND........................................................................................1
                 OBJECTIVES ...........................................................................................2
                 SCOPE .....................................................................................................2
                 METHODOLOGY .................................................................................... 3

  FINDINGS AND RECOMMENDATIONS ...................................................................4
       CHAPTER 1 ........................................................................................................4
                 PROBLEMS DETECTED BY AUDIT AT DAY CARE HOMES SHOW
                 THAT LITTLE HAS IMPROVED SINCE THE STATE PERFORMED
                 HOME VISITS IN 1999 .............................................................................4
                 FINDING NO. 1.........................................................................................4
                 RECOMMENDATION NO. 1 ..................................................................11
                 RECOMMENDATION NO. 2 ................................................................. 11

       CHAPTER 2 ......................................................................................................13
                 CRYSTAL STAIRS’ INADEQUATE SUPERVISION OF FIELD
                 SPECIALISTS RESULTED IN QUESTIONABLE MONITORING
                 ACTIVITIES ............................................................................................13
                 FINDING NO. 2.......................................................................................13
                 RECOMMENDATION NO. 3 ..................................................................20
                 RECOMMENDATION NO. 4 ..................................................................20
                 RECOMMENDATION NO. 5 ................................................................. 21

USDA/OIG-A/27010-24-SF                                                                                             Page iv
     CHAPTER 3 ......................................................................................................22
              CRYSTAL STAIRS DID NOT SUBMIT REVISED ADMINISTRATIVE
              CLAIMS TO REFLECT ADJUSTMENTS MADE DURING FY 2000......22
              FINDING NO. 3.......................................................................................22
              RECOMMENDATION NO. 6 ..................................................................25
              RECOMMENDATION NO. 7 ................................................................. 25

     EXHIBIT A – RESULTS OF HOME VISITS ..................................................... 27

     EXHIBIT B – FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT............30




USDA/OIG-A/27010-24-SF                                                                                        Page v
                             INTRODUCTION

                                        Crystal Stairs located in Los Angeles, California,
        BACKGROUND                      sponsors day care homes that participate in the
                                        U.S. Department of Agriculture’s (USDA) Child
                                        and Adult Care Food Program (CACFP). The
          purpose of this program is to ensure that children and adults enrolled in day
          care receive nutritionally balanced meals.              The program provides
          participating nonresidential care facilities, including day care homes and child
          care centers, reimbursement for meals served to eligible persons. Meals
          claimed for reimbursement must meet certain nutritional standards.

           The program is administered at the Federal level by USDA’s Food and
           Nutrition Service (FNS) and in most States by a State agency. In California,
           the State agency is the California Department of Education (CDE). State
           agencies administer the program, in part, through sponsoring organizations
           such as Crystal Stairs. Sponsors act as a liaison between the State agency
           and participating day care facilities. Sponsors are responsible for program
           operations in those facilities. Operators of day care homes can only
           participate in the program through a sponsor, while child care centers can
           participate directly.

           Federal regulations governing the program are located in Title 7 Code of
           Federal Regulations (CFR), section 226. Both FNS and the State agency
           have established financial management policies. FNS requirements are
           included in FNS Instruction 796-2, while the State agency has established its
           own requirements, which are included in its California Department of
           Education Day Care Home Sponsors Administrative Manual.

           Sponsors of day care homes submit monthly claims for reimbursement for
           both meals served by the facilities they sponsor and their administrative
           costs. Sponsors are reimbursed for their actual administrative costs up to a
           maximum amount per home sponsored. Administrative reimbursement is
           limited to the lesser of (1) approved homes times rates, (2) the actual
           expenditures for the cost of administering the program less income to the
           program, or (3) the amount of administrative costs approved by the State
           agency in the annual budget.        In addition, during any fiscal year,
           administrative payments to a sponsoring organization may not exceed 30
           percent of the total amount of administrative payments and food service

USDA/OIG-A/27010-24-SF                                                           Page 1
                 payments for day care home operations.1 Sponsors are required to disburse
                 meal reimbursements to providers within a specified timeframe.

                 Sponsors are also required to carry out certain oversight activities. For
                 example, sponsors must regularly visit each sponsored home to ensure that
                 providers are operating in compliance with program requirements. As well,
                 sponsors must offer annual training to their providers.

                                         The objectives of our audit were to evaluate
               OBJECTIVES                the sponsor’s administration of the program
                                         and compliance with program requirements.
                                         Specifically this included determining whether
                the sponsor claimed only allowable, approved, and supported
                administrative expenses, and adequately monitored and trained its
                providers.

                                            For fiscal year (FY) 2000, Crystal Stairs
                   SCOPE                    administered the program to approximately
                                            2,300 homes that claimed approximately $11
                                            million in meal reimbursement and was
                 reimbursed approximately $1.3 million to administer the program. In
                 California, about 88 sponsors disbursed slightly more than $103 million to
                 about 21,547 homes and received slightly under $15 million for administering
                 the program. The sponsor was selected because it was the largest in
                 California and CDE had concerns based on prior State agency reviews.

                 We reviewed Crystal Stairs’ operations for FY 2000 and FY 2001 through
                 March 31, 2001. Fieldwork was completed during the period February 26,
                 2001, through March 30, 2001.

                 We performed our review of the sponsor’s administrative records at its office
                 in Los Angeles, California. During FY 2000, the sponsor submitted
                 administrative claims totaling $1,578,638. For the month of July 2000, we
                 reviewed administrative expenditures totaling $134,552; for the months of
                 December 1999 and March 2000, we reviewed all payroll expenditures,
                 which represented 54 percent of the expenditures for those months.

                 Our review also included visits, during March 2001, to 70 judgmentally
                 selected providers operating under the sponsor in the South-Central area of
                 Los Angeles County. We selected for review, providers that submitted large
                 claims and claims that appeared overly consistent by providers receiving

1
    7 CFR 226.12(a), dated January 1, 2000

USDA/OIG-A/27010-24-SF                                                               Page 2
           maximum reimbursement by claiming every eligible meal to each child in
           attendance during the month in review. We also included providers who had
           the same last names as other providers, and providers who were no longer
           in the program. For 5 of the 70 providers, the provider was not home or
           we were instructed to return at a later date.

           The audit was conducted in accordance with generally accepted government
           auditing standards.

                                      To accomplish our audit objectives, we
        METHODOLOGY                   performed the following steps and procedures:


                 We interviewed officials at the Food and Nutrition Service in San
                 Francisco, California, to select a sponsor for review.

                 We interviewed officials and reviewed records at the CDE in
                 Sacramento, California, to obtain information about State program
                 policies and procedures, and to select a sponsor for review.

                 We interviewed the sponsor’s staff to obtain an understanding of
                 their operating procedures.         We reviewed documentation
                 supporting the sponsor’s claims for reimbursement of meal and
                 administrative costs, and its general administration of the program.

                 We interviewed sponsor officials and reviewed records pertaining to
                 the monitoring of provider homes. Records reviewed included
                 home visit forms, timesheets, and monitoring reports.

                 During our visits, we interviewed providers or other persons
                 present, and we reviewed records including attendance logs,
                 menus, meal counts and day care licenses. We also counted
                 children in attendance and observed general conditions at the
                 homes. We later compared the results of our provider visits to
                 records on file at the sponsor’s office.




USDA/OIG-A/27010-24-SF                                                      Page 3
           FINDINGS AND RECOMMENDATIONS

                   PROBLEMS DETECTED BY AUDIT AT DAY CARE
CHAPTER 1          HOMES SHOW THAT LITTLE HAS IMPROVED SINCE
                   THE STATE PERFORMED HOME VISITS IN 1999

                                        We found 80 percent of the day care home
         FINDING NO. 1                  providers we visited to be deficient in at least
                                        one of four categories we reviewed—accuracy
                                        of claims, recordkeeping, health and safety of
           the environment, and nutritional standards. Overall, we found that the
           providers had not complied with program regulations designed to ensure
           that they were reimbursed only for eligible meals served to children in their
           care, and that the children received the full benefit of the program in a safe
           and healthy environment. We concluded that Crystal Stairs had not
           adequately monitored or trained providers. Consequently, many providers
           may have been reimbursed for meals which they did not actually serve or
           which did not meet program standards.

           CDE and FNS conducted an initial review of 30 Crystal Stairs’ providers in
           October 1999 and performed follow-up site visits of 21 Crystal Stairs’
           providers in October and November of 2000. As a result of the number of
           deficiencies found, CDE prohibited Crystal Stairs from adding providers to
           the program until CDE found the sponsor in compliance with program
           requirements. The following problems were found during the State visits:




USDA/OIG-A/27010-24-SF                                                          Page 4
           Table 1 – Results of CDE Reviews Performed in 1999 and 2000
                                            October 1999           October/November 2000
                                         Initial Review of 30      Follow-up Review of 21
                                              Providers                  Providers

            Concern Noted            No. Observed   Percentag    No. Observed    Percentage
                                                        e

            Potential Overclaiming        3            10%             0             0

            Poor Recordkeeping           21            70%            21           100%
            Failing to Provide a
            Healthy and Safe
            Environment                  10            33%             0             0
            Failing to Meet
            Nutritional Standards        10            33%             1            .05%

           We performed a subsequent review of providers to determine if the
           conditions identified by CDE still existed. During our visits in March 2001,
           we visited day care homes sponsored by Crystal Stairs to review the
           operation of the food program. As part of our review, we interviewed
           providers and observed the number of children present at each home.

           We found during our review that the same deficiencies CDE and FNS had
           previously documented continued to occur. (see Exhibit A)

           Table 2 – Results of OIG’s Review Performed in March 2001
                                                          OIG Review of 65 Providers
                                                                 March 2001
                        Concern Noted               No. Observed             Percentage
           Potential Overclaiming                         30                    46%
           Poor Recordkeeping                             26                    40%
           Failing to Provide a Healthy and Safe
           Environment                                    20                    31%
           Failing to Meet Nutritional Standards           9                    14%

           Overclaiming Concerns

           As part of our review, we compared the results of our observations at
           providers’ homes with claims the providers submitted to Crystal Stairs
           before and after our visits. These claims, documenting meals served to
           children, are the basis for the reimbursement paid to the provider. We
           concluded that 46 percent of the providers may have claimed
           reimbursement for ineligible meals.



USDA/OIG-A/27010-24-SF                                                            Page 5
               The California Department of Education Manual states:

                      …grounds for termination of the provider’s agreement with the
                      sponsor [include:]…making intentional overclaims concerning…
                      number of meals actually served to enrolled children.2

               Some examples of the possible overclaims we found during our March
               2001 visits follow:

                      At provider 7, we observed no children on March 30, 2001,
                      between 10:45 a.m. and 11:05 a.m.; however, this provider claimed
                      ten children for breakfast that day, normally served at both 6 a.m.
                      and 8 a.m.

                      At provider 267, we observed only two children on March 28, 2001,
                      between 3:10 p.m. and 3:35 p.m.; however, this provider claimed
                      five children that day for afternoon snack, normally served at 3:30
                      p.m.

                      At provider 214, we observed no children on March 29, 2001,
                      between 8:05 a.m. and 8:40 a.m.; however, this provider claimed
                      six children for breakfast that day, normally served at 7 a.m.

                      At provider 233, we observed eight children on March 30, 2001,
                      between 9:25 a.m. and 9:45 a.m.; however, this provider claimed
                      12 children that day for breakfast, normally served between 8 and
                      8:30 a.m.

                      At provider 292, we observed only six children on March 30, 2001,
                      between 7:50 a.m. and 8:20 a.m.; however, this provider claimed
                      11 children were present that day for breakfast, normally served at
                      8 a.m.

               In other instances, the number of children we observed during our field
               visits did not correspond to the average number of children recorded by
               these providers. A subsequent review of provider claims disclosed that
               the provider claimed for reimbursement more children than we observed
               on the day of our visit:


2
 California Department of Education Day Care Home Sponsors Administrative Manual, Section 360(A),
dated September 1995.

USDA/OIG-A/27010-24-SF                                                                    Page 6
                       At provider 408, we observed seven children on March 28, 2001,
                       between 8:40 a.m. and 9:10 a.m. This provider claimed 12 children
                       daily, prior to and subsequent to our visit during the month of
                       March.

                       At provider 116, we observed six children on March 27, 2001,
                       between 8:15 a.m. and 8:40 a.m. This provider claimed 12 children
                       daily, prior to and subsequent to our visit during the month of
                       March.

                       At provider 80, we observed six children on March 29, 2001,
                       between 8:30 a.m. and 9:05 a.m. This provider claimed 12 children
                       daily, prior to and subsequent to our visit during the month of
                       March.

               Recordkeeping and Nutritional Concerns

               At 30 of the 65 homes (46 percent) we reviewed, we found that the
               providers had not adequately maintained records of attendance and meals
               served to children in their care or that the meals they served did not meet
               nutritional standards.

               Regulations require providers to keep daily records to support the meals
               they claim. These records must document the name of each person
               served and the meals they were served (i.e., breakfast, lunch, dinner, or
               snack).3 To ensure that meals meet nutritional requirements, providers
               must also keep menus showing what was served at each meal.4            In
               addition, in accordance with nutritional standards, federal regulations
               require that milk be served at breakfast, lunch and dinner.5

               The following examples illustrate the deficiencies found:

                       No records were available. Providers 7, 247, and 393 could not
                       produce any records during our visits. Provider 247 stated she had
                       run out of forms and had repeatedly requested more from Crystal
                       Stairs. The provider stated she had not been keeping track of meal
                       counts or attendance. We noted, however, that the provider
                       subsequently submitted completed meal counts to Crystal Stairs for
                       reimbursement for the entire month of March. Provider 7 was not
                       home when we visited, just before lunch service, and her assistant
3
  7 CFR 226.18(e) and 226.17(b)(8), dated January 1, 2000.
4
  7 CFR 226.18(d), dated January 1, 2000.
5
  7 CFR 226.20(a) 1-4, dated January 1, 2000.

USDA/OIG-A/27010-24-SF                                                           Page 7
                          could not locate any records.

                          Meal counts were completed in advance. Providers 127 and 374
                          had completed the meals counts in advance of service. Provider
                          127 had completed the meal counts for the entire month of March,
                          even for children who were subsequently not present during
                          service. Provider 374 had also completed meal counts for the
                          entire month, counting seven children each day.

                          Meal counts were inaccurate. Provider 236 counted breakfast for
                          two children who she stated had been absent. The provider had no
                          explanation for this error, and corrected the meal count in our
                          presence. Provider 384 stated she used her memory to complete
                          meal counts rather than recording meals when served.

                          Meals did not meet nutritional standards. Both providers 217 and
                          261 served lunches that were missing fruit and vegetable
                          components. Provider 225 had no milk in the house at 8:30 in the
                          morning and admitted she had to go to the store to purchase milk.

                  Health and Safety Concerns

                  We also found health and safety concerns at 31 percent of the homes we
                  visited. Some the problems found included:

                          Inadequate supervision. Regulations state, “One home
                          caregiver is responsible for no more than 6 children ages 3
                          or above, or no more than 5 children ages 0 and above. No
                          more than 2 children under the age of 3 [may be] in the care
                          of 1 caregiver.”6 We visited provider 298 on March 26, 2001,
                          between 11:20 a.m. and 12:45 p.m. We found the provider
                          was not home and had left her assistant alone. The
                          assistant was the only adult present for at least 30 minutes,
                          and she was caring for nine children, four of whom were 2
                          years old or younger. Most disturbing of all, the assistant
                          was unaware there was an infant sleeping in the back room.
                          Had there been a fire or some other emergency, the child
                          would have been in great danger.

                          Inadequate sanitation. Regulations state, “Institutions shall
                          ensure that in storing, preparing, and serving food, proper

6
    7 CFR 226.6(d)(2)(D)(3), dated January 1, 2000.

USDA/OIG-A/27010-24-SF                                                               Page 8
                       sanitation and health standards are met which conform with
                       all applicable State and local laws and regulations.”7 We
                       visited provider 128 on March 27, 2001, between 8:30 a.m.
                       and 9:15 a.m. and found chicken being improperly thawed
                       on the counter. We made two attempts to visit provider 133
                       on March 26. When this provider informed us that she did
                       not accept unannounced visits, we returned on March 28 at
                       11:50 a.m. We observed that the provider had served
                       spaghetti for lunch. The leftovers, which the provider
                       intended to serve again for dinner, were left on the stove.

                       Unsafe environment.          Regulations state, “Ventilation,
                       temperature, and lighting [should be] adequate for children’s
                       safety and comfort…Space and equipment, including rest
                       arrangements for preschool age children, [should be]
                       adequate for the number of age range of participating
                       children.”8 We visited provider 66 on March 27, 2001,
                       between 9:10 a.m. and 9:40 a.m. We found seven children
                       sitting on the floor in a dark room, with the lights off and the
                       curtains drawn. The provider was painting the interior of the
                       house and had moved the furniture from other rooms to
                       accommodate the process. Because of this, the children
                       were limited to a small area of the living room. We felt the
                       space was inadequate for the number of children present.

                       Overcapacity.     Program manuals state, “The capacity
                       specified on the license shall be the maximum number of
                       children for whom care can be provided.9 Over capacity
                       situations should be reported to DSS [Department of Social
                       Services].”10 Providers 349, 190, and 24 exceeded their
                       licensed capacity on the days we visited.

               Training Providers and Inspecting Homes

               During its October 1999 review of 30 Crystal Stairs’ providers, CDE noted
               that one-third of the sample providers had either not been properly trained
               or had not been properly monitored.

7
  7 CFR 226.20(k), dated January 1, 2000.
8
  7 CFR 226.6(d)(2)(A), dated January 1, 2000.
9
  Department of Social Services Family Child Care Homes Manual, Title 22, Division 12, Chapter 3,
Article 6, 102416.5(a), dated November 5, 1997.
10
   California Department of Education Day Care Home Sponsors Administrative Manual, Section 333,
dated September 1995.

USDA/OIG-A/27010-24-SF                                                                      Page 9
                  The sponsor’s primary oversight activities—training providers and
                  inspecting homes—are essential to ensure that children participating in
                  the CACFP receive the full benefits of the program. Further, provider
                  training and home inspection visits are controls designed to prevent fraud,
                  waste and abuse at the provider level.

                  Regulations require:

                          Each sponsoring organization shall provide adequate
                          supervisory and operational personnel for the effective
                          management and monitoring of the program…under its
                          jurisdiction. At a minimum, such Program assistance shall
                          include: …reviews of food service operations to assess
                          compliance with meal pattern, recordkeeping, and other
                          Program requirements.11

                  We found that the training and monitoring deficiencies identified by CDE in
                  1999 were still evident. Crystal Stairs’ field specialists, hired to monitor
                  food program operations, were not completing the number of reviews
                  required by Crystal Stairs’ management.            The Los Angeles Area
                  Coordinator for Crystal Stairs informed OIG that field specialists are
                  expected to complete no less than six visits per day. However, we found
                  from our review of six field specialists that their average daily visits were
                  far fewer.

                  Table 3 – Field Specialists’ Average Daily Visits
                               Field Specialist                    FY 2000 Average Daily Visits
                                      A                                       3.17
                                      B                                       2.08
                                      C                                       2.56
                                      D                                       3.87
                                      E                                       3.67
                                      F                                       2.91

                  At Crystal Stairs, a field specialist’s job responsibilities include home visits,
                  paperwork, outreach, meetings, speaking at licensing orientations, and if
                  the specialist is bilingual, assisting in the translation of program materials
                  into other languages.

                  In our opinion, the field specialists’ additional duties interfere with what
                  should be their main focus, conducting home visits. Some providers may

11
     7 CFR 226.16(c)(d)(4), dated January 1, 2000.

USDA/OIG-A/27010-24-SF                                                                      Page 10
           have willfully ignored program requirements. Others, we concluded, may
           not have complied with program requirements because the sponsor’s
           home inspection visits were too infrequent to determine whether the
           provider was in compliance, to provide training, or to prescribe a corrective
           action program when appropriate.

           CDE should instruct Crystal Stairs to revise its monitoring processes to
           ensure provider compliance with program requirements. CDE should then
           follow-up with unannounced provider visits to evaluate the effectiveness of
           Crystal Stairs’ monitoring processes. CDE should also inform Crystal
           Stairs of the providers found to be out of compliance. Crystal Stairs
           should work with these providers to correct the deficiencies found. CDE
           should conduct subsequent provider visits to ensure deficiencies have
           been corrected.


    RECOMMENDATION NO. 1


           Require CDE to instruct Crystal Stairs to revise its monitoring processes to
           ensure provider compliance with program requirements. After the new
           monitoring processes have been implemented, CDE should conduct
           unannounced provider visits to evaluate effectiveness.

           Agency Response

           In its written response to the draft report, dated December 12, 2001, FNS
           concurred with the recommendation to require CDE to instruct Crystal
           Stairs to revise its monitoring processes to ensure it is complying with
           program requirements and to conduct unannounced provider visits to
           evaluate effectiveness.

           OIG Position

           In order to reach management decision, FNS needs to provide a
           timeframe for completing the recommended action.


    RECOMMENDATION NO. 2


           Instruct CDE to advise Crystal Stairs of the providers that we found to be
           out of compliance with program requirements. CDE should instruct

USDA/OIG-A/27010-24-SF                                                        Page 11
           Crystal Stairs to follow up with these providers to correct the deficiencies.
           CDE should later perform follow-up visits to these providers to ensure
           deficiencies have been corrected.

           Agency Response

           In its written response to the draft report, dated December 12, 2001, FNS
           concurred with the recommendation to instruct CDE to advise Crystal
           Stairs of the providers that we found to be out of compliance with program
           requirements. CDE should instruct Crystal Stairs to follow up with these
           providers to correct the deficiencies. CDE should later perform follow-up
           visits to these providers to ensure deficiencies have been corrected.

           OIG Position

           In order to reach management decision, FNS needs to provide a
           timeframe for completing the recommended action.




USDA/OIG-A/27010-24-SF                                                        Page 12
                           CRYSTAL STAIRS’ INADEQUATE SUPERVISION OF
 CHAPTER 2                 FIELD SPECIALISTS RESULTED IN QUESTIONABLE
                           MONITORING ACTIVITIES

                                              Crystal Stairs did not adequately supervise its
                FINDING NO. 2                 field specialists or maintain records of their
                                              activities    when     monitoring    providers.
                                              Specifically, the sponsor did not (a) ensure
                  that field specialists conducted the required number of monitoring visits,
                  (b) maintain required payroll records, and (c) ensure that field specialists
                  accurately recorded monitoring times or mileage. Generally, Crystal Stairs
                  lacked the necessary controls and oversight to ensure that program
                  requirements were met. As a result, the sponsor does not have adequate
                  assurance that day care home providers complied with CACFP program
                  requirements and field specialists were accurately compensated for
                  payroll and mileage expenses.

                  Monitoring Visits Were Not Performed

                  Crystal Stairs is required to visit each provider three times during the fiscal
                  year to ensure the program is being operated in accordance with program
                  requirements. The sponsor had 16 field specialists and two supervisory
                  coordinators responsible for monitoring 2,300 day care home providers.
                  However, our review disclosed that the required monitoring visits were not
                  being performed. According to the field specialist supervisor, field
                  specialists are responsible for conducting and documenting the results of
                  the home visits, and the supervisory coordinators review the
                  documentation for completeness and accuracy. Regulations state:

                          At a minimum, such program assistance shall include:
                          reviews of food service operations to assess compliance with
                          meal pattern, recordkeeping, and other Program
                          requirements.     Such reviews shall be made not less
                          frequently than three times each year at each day care
                          home, provided at least one review is made during each day
                          care home’s first four weeks of Program operations and not
                          more than six months elapse between reviews.12



12
     7 CFR 226.16 (d)(4)(ii) dated January 1, 2000.

USDA/OIG-A/27010-24-SF                                                                 Page 13
           The field specialist documents the results of the home visit by completing
           a home visit form. The date of the visit is entered into a database to
           ensure that the required visits are made to each provider. We obtained a
           report from Crystal Stairs that detailed the visits conducted by each field
           specialist during FY 2000. Our review of the report disclosed that Crystal
           Stairs’ field specialists were not in compliance in 258 instances for 207 of
           the day care home providers. For 34 of the homes, no visits at all were
           performed. Table 4 summarizes the results of our analysis.

          Table 4 – Monitoring Visits That Did Not Meet Requirements
            Number of Homes Where Visits
            Were Not In Compliance With Regulations:                              207
            Examples of Non-Compliance:
            No Visits Performed                                                    34
            Initial Visit More Than 4 Weeks After Start Date                       46
            Less Than 3 Visits In Fiscal Year                                     120
            More Than 6 Months Between Visits                                      58
            Total                                                                 258

           We brought this issue to the attention of the supervisory coordinator. She
           was unable to provide an explanation as to why the required field visits
           were not performed in accordance with regulations.

           In addition, we were unable to determine which field specialist performed
           home visits by reviewing the report. We found that the field specialists
           listed on the report did not necessarily conduct the home visits recorded
           under their names. We asked the supervisory coordinator about this. She
           informed us that the field specialists listed on the report were the ones
           assigned to the provider, but other field specialists were often called upon
           to perform visits when necessary.

           Participation in the CACFP requires that providers prepare and serve
           meals that meet program requirements and maintain accurate records.
           Sponsors are responsible for enforcing these requirements by monitoring
           providers through field visits. The lack of adequate oversight by a sponsor
           can lead to program abuses. A sponsor must have some form of
           assurance that the provider is operating in accordance with program rules
           and regulations.

           On October 4, 2001, we conducted a preliminary exit conference with
           Crystal Stairs’ personnel. At this meeting, Crystal Stairs was able to
           provide documentation, which explained satisfactorily why many of the
           home visits were not performed. The reasons included providers who: 1)
           began the program in the middle of the fiscal year, 2) did not claim

USDA/OIG-A/27010-24-SF                                                       Page 14
               consistently, and 3) moved or were suspended from the program. For
               these reasons, Crystal Stairs would have been exempt from making the
               required number of visits, for FY 2000. State instructions permit sponsors
               to prorate the required number of monitoring visits for day care homes that
               do not operate continuously during a fiscal year.13 Crystal Stairs also
               provided us with documentation verifying that some home visits were
               made, even though they had not been entered into the tracking system.

               After reviewing the most recent documentation provided by Crystal Stairs,
               we found that 41 home visits still were not performed. Crystal Stairs
               stated the visits were not performed because: 1) Crystal Stairs’ staff was
               in transition, 2) visits were attempted unsuccessfully, and 3) field
               specialists could not communicate with Spanish-speaking providers.

               Times Overlapped on Monitoring Forms

               We determined that field specialists were not accurately reporting their
               arrival or departure times when conducting home visits. Field specialists
               are required to record the arrival and departure times, date, and results of
               visit on the monitoring forms.

               The California Department of Education Manual states:

                       Financial and administrative responsibilities generally include
                       keeping accurate records of administrative costs and
                       program management.14

               We reviewed the database report that identified all home visits conducted
               during fiscal year 2000. For three judgmentally selected field specialists,
               we analyzed all of their visits to calculate the average number of visits
               conducted on a daily basis. For the three field specialists selected, we
               reviewed the actual monitoring forms when seven or more visits were
               performed in 1 day. Based upon our review of the monitoring visit
               database, our interview with the field specialist coordinator for Los
               Angeles County, and our experience conducting home visits, we
               determined that conducting seven or more home visits in 1 day was
               improbable.

               In addition to the above records, we also obtained at least one additional

13
   California Department of Education Nutrition Services Division Management Bulletin, No. 01-210,
dated August 2001.
14
   California Department of Education, Day Care Home Sponsors Administrative Manual, page 200.1,
dated September 1995.

USDA/OIG-A/27010-24-SF                                                                     Page 15
           month of monitoring forms for these three field specialists. Our review
           identified 21 instances were arrival or departure times overlapped with
           other homes visits (see Table 5).

           Table 5 – Data Showing Home Visits with Overlapping Times
                 Field        Provider      Date         Arrival Time   Departure Time
              Specialist
                   A            589     10/13/99       11:35 a.m.       12:05 p.m.
                   A            243     10/13/99       11:45 a.m.       12:25 p.m.

                  A            2219      10/25/99      12 p.m.          12:30 p.m.
                  A            564       10/25/99      12 p.m.          1:10 p.m.
                  A            2041      10/25/99      12:40 p.m.       1:15 p.m.

                  A            2157      10/28/99      12:10 p.m.       12:40 p.m.
                  A            2143      10/28/99      12:30 p.m.       1 p.m.

                  A            2339      12/6/00       10:40 a.m.       1:15 p.m.
                  A            504       12/6/00       11:25 a.m.       11:55 a.m.
                  A            1162      12/6/00       12 p.m.          12:30 p.m.
                  A            900       12/6/00       12:15 p.m.       12:50 p.m.

                  D            685       1/25/00       8:35 a.m.        9:05 a.m.
                  D            1545      1/25/00       8:45 a.m.        9:20 a.m.

                  D             703      1/25/00       10:30 a.m.       11:10 a.m.
                  D             537      1/25/00       11 a.m.          11:35 a.m.

                  D             526      1/25/00       11:35 a.m.       12:15 p.m.
                  D             143      1/25/00       11:45 a.m.       12:20 p.m.

                  D            1074      5/3/00        11:30 a.m.       12:15 p.m.
                  D            687       5/3/00        11:45 a.m.       12:20 p.m.

                  F             146      10/12/00      1:05 p.m.        1:35 p.m.
                  F             152      10/12/00      1:15 p.m.        2 p.m.

           We discussed this issue with the Program Manager and she stated that
           the field specialists inadvertently recorded the wrong times on the forms
           and their supervisor did not detect the errors.

           We have no assurance that the times recorded by the field specialists
           were accurate. Therefore, we cannot determine if the time field specialists
           devoted to home visits was adequate to review provider records,
           determine whether the provider was complying with program
           requirements, provide training, or prescribe a corrective action program,
           when appropriate.

USDA/OIG-A/27010-24-SF                                                         Page 16
               Times Were Altered on Monitoring Forms

               We reviewed 42 monitoring forms completed by field specialist A in
               October 1999. Our review disclosed that the arrival and departure times
               appeared to have been altered on nine monitoring forms. We were only
               able to contact six of the nine providers, who received a copy of the
               monitoring form, to verify the accuracy of the information on the forms.
               Two of the providers could not locate the appropriate monitoring forms,
               one confirmed the information was accurate, and the three remaining
               providers stated that the information conflicted with their copies of the
               monitoring form.

               Table 6 – Data From Altered Monitoring Forms
                Provider    Sponsor    Provider    Sponsor      Provider     Sponsor      Provider
                Number      Date       Date        Arrival      Arrival      Departure    Departure
                                                   Time         Time         Time         Time
                589         10/13/99   10/13/99    11:35 a.m.   10:35 a.m.   12:05 p.m.   12:05 P.M.
                564         10/25/99   10/26/99,   12 p.m.      12 p.m.      1:10 p.m.    1:10 P.M.
                                       10/25/99
                2041        10/25/99   10/25/99    12:40 p.m.   12:20 p.m.   1:15 p.m.    12:50 P.M.


               When we contacted provider 564, she stated that on this particular
               monitoring form there were two problems. First, the field specialist
               inadvertently left two documents with the provider, a copy of the
               monitoring form, and an internal memo transmittal addressed to a Crystal
               Stairs’ program assistant. The monitoring form was dated October 25,
               1999, which agreed with the Crystal Stairs database report. However, the
               memo transmittal was dated October 26, 1999, which agreed with the
               program specialist’s timesheet, but conflicted with the monitoring form.
               The provider also stated that although the times matched, they in fact
               were inaccurate. The field specialist never spent more than 30 minutes
               during home visits, but recorded longer durations on the monitoring forms.
               The provider said she knowingly signed incorrect forms to avoid
               confrontation with the field specialist.

               The California Department of Education Manual states:

                       Financial and administrative responsibilities generally include
                       keeping accurate records of administrative costs and
                       program management.15

               Inadequate oversight can lead to a lack of integrity in the program. Had the

15
  California Department of Education, Day Care Home Sponsors Administrative Manual, page 200.1,
dated September 1995.

USDA/OIG-A/27010-24-SF                                                                      Page 17
               supervisor properly reviewed the monitoring forms, it would have led her to
               question the irregularities we noted.

               Field Specialists Did Not Accurately Record Mileage

               We determined that field specialists did not accurately record their
               mileage. Crystal Stairs requires each field specialist to complete a
               program specialist timesheet on a daily basis. The program specialist
               timesheet is used to record the field specialists’ daily activities such as
               office hours, home visits, meetings, and mileage to places of business.
               Crystal Stairs requires the field specialist to record their beginning and
               ending odometer reading and total miles for each day they use their
               vehicles for business.

               A sponsor can claim for reimbursement the transportation cost associated
               with monitoring visits to the homes. Records of each trip shall include
               date, driver’s name, car license number, mileage, beginning and ending
               odometer readings, the origin and destination and the reason.16

               We reviewed the FY 2000 mileage records for six of the field specialists
               (A, D, F, and three others) and determined that none of the six accurately
               recorded their mileage. They incorrectly computed mileage, recorded
               odometer readings that conflicted with previous days’ readings, and failed
               to record beginning and/or ending odometer readings. In addition, two
               field specialists had not recorded their mileage for an entire month.

               We discussed this issue with the supervisor and she stated that the errors
               occurred because she did not properly review the mileage records and
               therefore did not detect any problems.

               In our opinion, the supervisor had not exercised proper oversight when
               reviewing monthly mileage reports. As a result, inaccurate forms were
               being filed which did not support actual mileage.

               Timesheets Were Missing for One Field Specialist

               We asked Crystal Stairs for copies of the FY 2000 timesheets for the six
               field specialists mentioned above. The sponsor was unable to provide us
               with several timesheets for field specialist D.


16
  California Department of Education Day Care Home Sponsors Administrative Manual, Section 500.17,
dated September 1995.

USDA/OIG-A/27010-24-SF                                                                  Page 18
               The California Department of Education Manual states:

                       Records must be maintained for a minimum of three years
                       after the end of the fiscal year to which they pertain.17
                       Sponsors must be prepared to…accept all financial and
                       administrative responsibilities for program operation.
                       Financial and administrative responsibilities generally include
                       keeping accurate records of administrative costs and
                       program management.18 Sponsors may be terminated from
                       participation in [CACFP] [for] failure to maintain adequate
                       records.19

               The timesheets consist of two forms. The program specialist timesheet
               details the hours charged to provider visits, meetings, and office work, as
               well as the mileage claimed per task. The employee offsite timesheet
               provides a recap of the total hours worked and the mileage claimed per
               day. Field specialists are required to complete these forms on a daily
               basis.

               We initially requested copies of these two forms for the six field specialists
               in February 2001. In a memo dated April 27, 2001, the Program Manager
               stated that not all of the records for field specialist D could be found, and
               she could not provide an explanation for this deficiency. Table 7 lists the
               missing documentation.

               Table 7 – Field Specialist D’s Missing Timesheets
                             Date                Program Specialist         Employee Offsite
                                                     Timesheet                Timesheet
                     10/1/99 – 10/15/99                  X
                    10/16/99 – 10/31/99                  X
                           1/14/00                       X
                      1/16/00 – 1/31/00                  X                          X
                      4/16/00 – 4/30/00                  X                          X
                       9/1/00 – 9/15/00                  X                          X
                      9/16/00 – 9/30/00                  X                          X

               The missing timesheets for field specialist D totaled approximately $7,200

17
   California Department of Education, Day Care Home Sponsors Administrative Manual, page 400.1,
dated September 1995.
18
   California Department of Education, Day Care Home Sponsors Administrative Manual, page 200.1,
dated September 1995.
19
   California Department of Education, Day Care Home Sponsors Administrative Manual, page 200.8,
dated September 1995.

USDA/OIG-A/27010-24-SF                                                                   Page 19
           in wages and benefits. Although we did not question whether field
           specialist D actually worked during these times, we believe the sponsor
           should have exercised greater control over payroll documentation.

           CDE needs to ensure that Crystal Stairs performs the required number of
           home visits annually and utilizes a tracking system that accurately reflects
           home visits performed. In addition, CDE needs to ensure that Crystal
           Stairs’ supervisors are adequately reviewing monitoring forms and
           timesheets submitted by field specialists and that timesheets are
           maintained for the required period of time.


    RECOMMENDATION NO. 3


           Instruct CDE to ensure that Crystal Stairs performs the required number of
           home visits annually and utilizes a tracking system that accurately reflects
           home visits performed.

           Agency Response

           In its written response to the draft report, dated December 12, 2001, FNS
           concurred with the recommendation to instruct CDE to ensure that Crystal
           Stairs performs the required number of home visits annually and utilizes a
           tracking system that accurately reflects home visits performed.

           OIG Position

           In order to reach management decision, FNS needs to provide a
           timeframe for completing the recommended action.


    RECOMMENDATION NO. 4


           Instruct CDE to require Crystal Stairs to ensure monitoring forms are
           adequately reviewed by supervisors and accurately reflect the dates and
           times of the visits.

           Agency Response

           In its written response to the draft report, dated December 12, 2001, FNS
           concurred with the recommendation to instruct CDE to require Crystal

USDA/OIG-A/27010-24-SF                                                       Page 20
           Stairs to ensure monitoring forms are adequately reviewed by supervisors
           and accurately reflect the dates and times of visits.

           OIG Position

           In order to reach management decision, FNS needs to provide a
           timeframe for completing the recommended action.


    RECOMMENDATION NO. 5


           Instruct CDE to require Crystal Stairs to ensure that program specialist
           and employee offsite timesheets are maintained for the required period of
           time, and are adequately reviewed by supervisors and accurately reflect
           mileage claimed for reimbursement by field specialists.

           Agency Response

           In its written response to the draft report, dated December 12, 2001, FNS
           concurred with the recommendation to instruct CDE to require Crystal
           Stairs to ensure that program specialist and employee offsite timesheets
           are maintained for the required period of time, and are adequately
           reviewed by supervisors and accurately reflect mileage claimed for
           reimbursement by field specialists.

           OIG Position

           In order to reach management decision, FNS needs to provide a
           timeframe for completing the recommended action.




USDA/OIG-A/27010-24-SF                                                    Page 21
                           CRYSTAL STAIRS DID NOT SUBMIT REVISED
 CHAPTER 3                 ADMINISTRATIVE CLAIMS TO REFLECT
                           ADJUSTMENTS MADE DURING FY 2000

                                              Crystal Stairs did not submit revised claims to
               FINDING NO. 3                  reflect adjusted expenditures. According to
                                              officials at Crystal Stairs, revised claims were
                                              not submitted because adjustments to the
                 claims were not realized until after deadlines to submit them had passed.
                 Crystal Stairs’ officials acknowledged that during this period they had a
                 period of high employee turnover and were unable to maintain an
                 experienced staff to accurately complete the claim for reimbursement.
                 Without an accurate and supported claim, CDE cannot ensure that its
                 chosen method of reimbursement is the lesser of the three alternatives
                 available—claimed costs, budgeted costs, or approved rates and that
                 Crystal Stairs is not being over-reimbursed.

                  Regulations state that:

                          Claims for reimbursement shall report information in
                          accordance with the financial management system
                          established by the State agency, in sufficient detail to justify
                          the reimbursement claimed 20.

                  Throughout FY 2000, reimbursement to Crystal Stairs was based on the
                  homes-times-rates formula. CDE found this formula to be the lesser of the
                  three alternative methods of reimbursement, compared to the budget and
                  the claims of actual administrative costs that Crystal Stairs submitted to
                  CDE.

                  To verify that the homes-times-rate formula was in fact less than the
                  actual costs, we reviewed Crystal Stairs’ claims for actual costs. We
                  obtained the amount of administrative expenditures reported to CDE and
                  compared that amount to supporting schedules maintained by Crystal
                  Stairs. Our review disclosed that the scheduled expenditures did not
                  support the amount Crystal Stairs claimed for reimbursement. For
                  example, while the November 1999 claim disclosed that Crystal Stairs
                  expended $128,970 for program purposes, our review disclosed Crystal
                  Stairs maintained scheduled expenditures supporting $122,547 in

20
     7 CFR 226.10(b)(4)(c), dated January 1, 2000.

USDA/OIG-A/27010-24-SF                                                                  Page 22
           expenses. We noted, however, that this scheduled amount was still
           greater than that produced by the homes-times-rate formula: $103,219.

           Table 8 documents the total claim amount, the scheduled expenditures,
           and the homes-times-rate amount upon which Crystal Stairs’
           reimbursement was based for FY 2000.

           Table 8 – Comparison of Crystal Stairs’ Claimed Expenses, Scheduled Expenses,
           and Reimbursement Amount

                 FY 2000           CLAIMED          SCHEDULED          REIMBURSED
                 MONTH             AMOUNT            AMOUNT              AMOUNT
            October                 $116,185          $122,099            $103,793
            November                $128,970          $122,547            $103,219
            December                $146,149          $122,441            $103,096
            January                 $128,617          $125,519            $103,342
            February                $122,878          $121,145            $103,793
            March                   $158,263          $162,827            $105,105
            April                   $119,570          $115,454            $105,802
            May                     $120,033          $116,509            $106,376
            June                    $128,336          $137,631            $105,802
            July                    $142,001          $134,552            $107,746
            August                  $130,762          $129,824            $109,048
            September               $136,874          $136,836            $109,132


           We discussed this issue with sponsor representatives and they informed
           us that, “amounts reported on the claims for reimbursement were different
           from supporting schedules because adjustments to the general ledger
           were made after the final claim had been prepared. These adjustments
           were necessary due to the following: a) changes in allocations, b)
           expenses posted in the incorrect month, and c) late receipt of invoices for
           payment.”

           We noted that for all 12 months of FY 2000, Crystal Stair’s reimbursement
           amount was still less than the actual costs it claimed, after adjusting for
           unsupported costs. Had actual costs fallen below the homes-times-rate
           formula, Crystal Stairs would have been reimbursed by an amount, which
           could not be supported.

           According to the regulations, administrative reimbursement is limited to the
           lesser of (1) approved homes times rates, (2) actual expenditures for the cost
           of administering the program less income to the program, or (3) the amount
           of administrative costs approved by the State agency in the annual budget.

USDA/OIG-A/27010-24-SF                                                         Page 23
               In addition, during any fiscal year, administrative payments to a sponsoring
               organization may not exceed 30 percent of the total amount of administrative
               payments and food service payments for day care home operations. 21

               We concluded that Crystal Stairs’ method of accounting for adjustments to
               costs, after cost claims were submitted for reimbursement, was not in
               conformance with CDE’s approved financial management systems. Although
               Crystal Stairs was not reimbursed based on its claim, there exists an
               opportunity for it to be reimbursed for a claim that was inaccurate. Such a
               claim may have occurred prior to our audit period, and it may occur in the
               future unless CDE ensures that Crystal Stairs’ submits a final claim that
               reflects its actual expenditures.

               Budget Revisions Not Submitted

               We also compared the amounts claimed by Crystal Stairs for FY 2000 to
               the budget for FY 2000. We determined that Crystal Stairs had claimed
               $1,578,638 in administrative expenses for FY 2000, but according to the
               budget was only approved to expend $1,500,276. Because Crystal Stairs
               did not submit budget revisions, CDE could not adequately monitor the
               sponsor’s expenditures. The sponsor is required to submit a budget
               revision when there is an increased expenditure for a budget line item.22

               Crystal Stairs did not submit a budget revision in FY 2000 for the $78,362,
               which exceeded its approved budget.23

               CDE also identified this issue during its review of Crystal Stairs’ operation
               in October 1999. Crystal Stairs submitted a corrective action plan to CDE
               that stated:

                       We recognize that there was a lack of monitoring the FY
                       1999 CACFP budget, and budget revisions should have
                       been submitted for approval as required by the CACFP.
                       We have established a procedure to monitor budgeted to
                       actual revenues and expenditures monthly and to revise the
                       budget as appropriate. Fiscal staff are preparing monthly
                       budgeted to actual report and submit to Fiscal
                       Manager/Associate Director of Finance for review. If a

21
   7 CFR 226.12(a), dated January 1, 2000.
22
    California Department of Education Day Care Home Sponsors Administrative Manual, Section 561,
dated September 1995.
23
    Unlike the case of claimed expenses, Crystal Stairs’ failure to revise its budget upward would only
have an adverse affect on Crystal Stairs, not on CACFP funding.

USDA/OIG-A/27010-24-SF                                                                      Page 24
                 budget modification is necessary the Fiscal department will
                 submit in accordance with CACFP guidelines.

           However, our review disclosed that the sponsor had not implemented the
           corrective action that it agreed to implement. The sponsor stated that a
           budget revision was not necessary because the over-budget expenditures
           were paid for by Crystal Stairs and not CDE.      However, since Crystal
           Stairs claimed these expenditures on its claim to CDE, a budget revision
           was necessary and required.

           CDE needs to instruct Crystal Stairs to track administrative costs monthly
           in order not to exceed the dollar amount approved in the budget and
           submit budget revisions when necessary.


    RECOMMENDATION NO. 6


           Require CDE to instruct Crystal Stairs to submit revised claims, in
           accordance with the CDE Day Care Home Sponsors Administrative
           Manual, when administrative expenses are adjusted.

           Agency Response

           In its written response to the draft report, dated December 12, 2001, FNS
           concurred with the recommendation to require CDE to instruct Crystal
           Stairs to submit revised claims, in accordance with the CDE Day Care
           Home Sponsors Administrative Manual, when administrative expenses are
           adjusted.

           OIG Position

           In order to reach management decision, FNS needs to provide a
           timeframe for completing the recommended action.


    RECOMMENDATION NO. 7


           Require CDE to instruct Crystal Stairs to submit budget revisions in
           accordance with the CDE Day Care Home Sponsors Administrative
           Manual.
           Agency Response

USDA/OIG-A/27010-24-SF                                                     Page 25
           In its written response to the draft report, dated December 12, 2001, FNS
           concurred with the recommendation to require CDE to instruct Crystal
           Stairs to submit budget revisions in accordance with the Day Care Home
           Sponsors Administrative Manual.

           OIG Position

           In order to reach management decision, FNS needs to provide a
           timeframe for completing the recommended action.




USDA/OIG-A/27010-24-SF                                                    Page 26
EXHIBIT A – RESULTS OF HOME VISITS
                                                                               Exhibit A - Page 1 of 3




                                                                     Meal Service
                                Inconclusive
           Completed?




                                               Overclaim




                                                                     Nutrition/
                                Concern




                                               Possible




                                                                                            Keeping
           Yes/No/




                                Yes/No/
  Number


           Review




                                Noted?




                                                                                            Record
                                                           Health/
                                (Y/N/I)




                                                           Safety
  Home




                        (Y/N/

 236               Y                  Y        X
 298               Y                  Y                     X
  21               Y                  N
 393               Y                  Y                                                     X
 232               N                  I
 292               Y                  Y        X            X
 209               Y                  Y        X                                            X
 164               Y                  N
  66               Y                  Y        X            X
 394               Y                  Y                     X
 242               Y                  Y                     X             X
 408               Y                  Y        X
  76               Y                  N
 359               Y                  Y                     X
  27               Y                  Y                                                     X
 116               Y                  Y        X
  80               Y                  Y        X
  35               Y                  Y        X
  56               Y                  N
 233               Y                  Y        X
 305               Y                  Y                                                     X
 247               Y                  Y        X            X                               X
  59               Y                  N
 349               Y                  Y                     X
 190               Y                  Y        X            X                               X
  7                Y                  Y        X                                            X
 250               Y                  N
 413               Y                  Y                     X
 273               Y                  Y                                                     X
  60               Y                  Y        X
 133               Y                  Y        X            X                               X




USDA/OIG-A/27010-24-SF                                                                    Page 27
EXHIBIT A – RESULTS OF HOME VISITS
                                                                                Exhibit A - Page 2 of 3




                                                                      Meal Service
                                 Inconclusive
           Completed?




                                                Overclaim




                                                                       Nutrition/
                                   Concern




                                                Possible




                                                                                             Keeping
            Yes/No/




                                   Yes/No/
  Number


             Review




                                    Noted?




                                                                                             Record
                                                            Health/
                                    (Y/N/I)




                                                            Safety
   Home




                        (Y/N/)

 225               Y                   Y        X                          X                 X
 146               Y                   N
 237               Y                   Y                                                     X
 373               Y                   Y                     X             X
 217               Y                   Y                                   X                 X
  24               Y                   Y                     X
 339               Y                   N
  16               Y                   N
 384               Y                   Y                                                     X
 333               Y                   N
 383               Y                   Y                                   X                 X
 128               Y                   Y        X            X             X                 X
 261               Y                   Y        X            X             X                 X
  31               Y                   Y                     X
 294               N                   I
  34               Y                   Y                     X                               X
 115               Y                   Y        X            X                               X
 112               N                   I
 400               Y                   Y        X                          X
 374               Y                   Y        X                                            X
 267               Y                   Y        X                                            X
 347               Y                   Y                                                     X
 169               Y                   N
 170               Y                   Y                     X                               X
 182               Y                   Y                                                     X
 216               Y                   Y        X
 340               Y                   Y        X
 214               Y                   Y        X
  75               N                   Y        X
  95               Y                   N
 287               Y                   Y        X
 119               Y                   Y        X



USDA/OIG-A/27010-24-SF                                                                     Page 28
EXHIBIT A – RESULTS OF HOME VISITS
                                                                                  Exhibit A – Page 3 of 3




                                                                          Meal Service
                                 Inconclusive
           Completed?




                                                    Overclaim




                                                                           Nutrition/
                                   Concern




                                                    Possible




                                                                                               Keeping
            Yes/No/




                                   Yes/No/
  Number


             Review




                                    Noted?




                                                                                               Record
                                                                Health/
                                    (Y/N/I)




                                                                Safety
   Home




                        (Y/N\)

 184               Y                    Y           X            X             X
 187               Y                    Y                                                      X
 181               Y                    N
 127               Y                    Y           X                                          X
  46               Y                    N
  92               Y                    Y           X                                          X
  86               N                    I
           Yes – 65              Yes - 52           30           20             9              26
           No – 5                No - 14
                                 Inconclusive - 4




USDA/OIG-A/27010-24-SF                                                                       Page 29
EXHIBIT B – FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT
                                         Exhibit B – Page 1 of 4




USDA/OIG-A/27010-24-SF                                   Page 30
EXHIBIT B – FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT
                                       Exhibit B – Page 2 of 4




USDA/OIG-A/27010-24-SF                                      Page 31
EXHIBIT B – FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT
                                          Exhibit B – Page 3 of 4




USDA/OIG-A/27010-24-SF                                    Page 32
EXHIBIT B – FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT

                                          Exhibit B – Page 4 of 4




USDA/OIG-A/27010-24-SF                                    Page 33
Informational copies of this report have been distributed to:

Agency Liaison Officer (2)
General Accounting Office (2)
Office of Management and Budget (1)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division (1)
